IN THE SUPREME COURT OF THE UNITED STATES

SMITH, JAMES W.
Petitioner
No: 19-0010

vs.

USA
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
July 15, 2019
cc:
DAVID E. SLOAN
SLOAN & SLOAN, PC
215 SOUTH STATE STREET
SUITE 101
SALT LAKE CITY, UT 84111
THOMAS R. BARTON
PARSONS BEHLE & LATIMER
201 SOUTH MAIN STREET
SUITE 1800
SALT LAKE CITY, UT 84111

